PROOF OF SERVICE
I, Parvin Heshmati, do hereby solemnly declare that on October
if if
2020,1 did cause to be delivered by mail a true and correct
copy of the foregoing instruments ("PETITION FOR WRIT OF
CERTIORARI plus exhibits and MOTION FOR LEAVE TO
PROCEED IN FORMA PAUPERIS") including true and correct
copies of all/any documents referenced therein as "attached
hereto", to the parties and locations listed below except the one
indentified by the Appellant, Appellant personally served those:
Parvin Heshmati
12309 Saratoga Creek Dr., Saratoga, CA, 95070
Tel: 408 873 8732
TO:

1. Delivery via U.S.P.S. courier mail with tracking number
Supreme Court of the United States
Attention: Clerk
1 First Street, NE
Washington, DC 20543
[1 original]
2.
Delivery via email to:
daniel.b.volk@usdoj.gov
Daniel B. Volk
U.S. Department of Justice - Civil Division (G)
Post Office Box 480
Ben Franklin Station
Washington, DC 20044
[just the petition and the exhibits by the petitioner]
3.
Delivery via email to:
prose@cafc.uscourts.gov
UNITED STATES COURT OF APPEALS
FOR THE FEDERAL CIRCUIT
Office of the Clerk,
717 MADISON PLACE, N.W.
WASHINGTON D.C. 20439
[just the petition and the exhibits by the petitioner]
-38-

Additional material
from this filing is
available in the
Clerk's Office.

